HHS/OIG-Audit--"Review of the Island Peer Review Organization's Denials of Full Medical Assistance Claims That New York State Identified as Pended or Denied Through the Automated Void Process, (A-02-94-01008)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Island Peer Review Organization's Denials of Full Medical Assistance Claims That New York State Identified
as Pended or Denied Through the Automated Void Process," (A-02-94-01008)
January 19, 1995
Complete
Text of Report is available in PDF format (1.4 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that 846 Medicaid hospital claims denied by the State's peer review organization were
not processed for recoupment by the State's fiscal agent. The claims totaled $2.0 million (Federal share) and were not
recovered due to system limitations in the State's Medicaid Management Information System, clerical errors, and lack of
follow-up. We are recommending financial adjustments where appropriate and that the State institute procedures to preclude
this problem from recurring. Both State and Health Care Financing Administration officials concurred with our findings
and recommendations.